No. 19-1252

In the Supreme Court of the United States
CALLAN CAMPBELL, KEVIN C. CHADWICK (INDIVIDUALLY AND THROUGH HIS COURTAPPOINTED ADMINISTRATORS, JAMES H. CHADWICK), JUDITH STRODE CHADWICK, THE

TYLER JUNSO ESTATE (THROUGH KEVIN JUNSO, ITS PERSONAL REPRESENTATIVE), NIKI
JUNSO, AND KEVIN JUNSO, ALL ON THEIR OWN BEHALF AND ON BEHALF OF A CLASS OF
ALL OTHERS SIMILARLY SITUATED,
Petitioners,
v.
UNITED STATES
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals for the Federal Circuit
CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5, I certify that on August 25, 2020, I caused
the REPLY TO BRIEF IN OPPOSITION in the above-captioned case to be served
upon the following by depositing the document with the United States Postal
Service, with no less than first-class postage prepaid, for delivery within 3 calendar
days, addressed to counsel of record at the proper address.
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov

__________________________________
Robert H. Thomas
Damon Key Leong Kupchak Hastert
1003 Bishop Street, 16th Floor
Honolulu, Hawaii 96813
(808) 531-8031
rht@hawaiilawyer.com
Counsel of Record for Petitioners

William Thomas DeVinney
Baker Hostetler LLP
1050 Connecticut Avenue, NW
Washington, DC 20036
bill.devinney@gmail.com

